<html>
<title> - THE DEPARTMENT OF ENERGY'S FUNCTIONS AND CAPABILITIES TO RESPOND TO ENERGY-RELATED EMERGENCIES, INCLUDING IMPACTS TO CRITICAL ENERGY INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 114-506]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-506

                THE DEPARTMENT OF ENERGY'S FUNCTIONS AND
               CAPABILITIES TO RESPOND TO ENERGY-RELATED
               EMERGENCIES, INCLUDING IMPACTS TO CRITICAL
                         ENERGY INFRASTRUCTURE

=======================================================================

                              FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 15, 2016

                               __________
                               
                               
                               
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
               
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
21-997 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
            Tristan Abbey, Senior Professional Staff Member
               Brianne Miller, Professional Staff Member
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                 Rich Glick, Democratic General Counsel
         Brie Van Cleve, Democratic Science & Technology Fellow
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     1

                               WITNESSES

Moniz, Hon. Ernest, Secretary, U.S. Department of Energy.........     5
Ezelle, Robert, Director, Washington State Emergency Management 
  Division.......................................................    51
Bowman, Stephanie, Commissioner, Port of Seattle (Washington)....    58
Hairston, John, Chief Administrative Officer, Bonneville Power 
  Administration, U.S. Department of Energy......................    63
Rogers, Scot, Executive Vice President & General Counsel, F5 
  Networks, Inc..................................................    73
Imhoff, Carl, Manager, Grid Research Program, Pacific Northwest 
  National Laboratory, U.S. Department of Energy.................    78
Best, Dr. Lynn, Chief Environmental Officer, Seattle City Light..    87

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Best, Dr. Lynn:
    Opening Statement............................................    87
    Written Testimony............................................    90
BNSF Railway:
    Statement for the Record.....................................   110
Bowman, Stephanie:
    Opening Statement............................................    58
    Written Testimony............................................    60
Cantwell, Hon. Maria:
    Opening Statement............................................     1
    Chart entitled ``Oil trains moving through Washington''......    47
Ezelle, Robert:
    Opening Statement............................................    51
    Written Testimony............................................    54
Hairston, John:
    Opening Statement............................................    63
    Written Testimony............................................    65
Imhoff, Carl:
    Opening Statement............................................    78
    Written Testimony............................................    82
Moniz, Hon. Ernest:
    Opening Statement............................................     5
    Clear Path IV: Energy-Focused Disaster Response Exercise 
      Summary Report, April 19-20, 2016..........................     9
    Written Testimony............................................    24
Rogers, Scot:
    Opening Statement............................................    73
    Written Testimony............................................    76

 
  THE DEPARTMENT OF ENERGY'S FUNCTIONS AND CAPABILITIES TO RESPOND TO 
   ENERGY-RELATED EMERGENCIES, INCLUDING IMPACTS TO CRITICAL ENERGY 
                             INFRASTRUCTURE

                              ----------                              


                        MONDAY, AUGUST 15, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                               Seattle, Washington.
    The Committee met, pursuant to notice, at 11:30 a.m. PDT at 
the Campion Ballroom at Seattle University, Seattle, 
Washington, Hon. Maria Cantwell, presiding.

  OPENING STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM 
                           WASHINGTON

    Senator Cantwell [presiding]: Today's meeting will come to 
order. I want to thank everyone for being here today. I 
especially want to thank Secretary Moniz for traveling to the 
Pacific Northwest to be part of this historic field hearing.
    I want to thank Seattle University and Father Sundborg, who 
I know is not here today, for hosting us again. We were here 
last year to discuss issues with Senator Barrasso related to 
the fire season and some great work came out of that hearing, 
so I expect the same out of this morning's discussion.
    First we are going to hear from Secretary Moniz and have a 
chance to discuss with him, for the official record, a variety 
of issues, mostly related to the Quadrennial Energy Review and 
updating our energy infrastructure.
    We will then hear from a group of Northwest experts on the 
second panel: Dr. Lynn Best, who is with Seattle City Light; 
Stephanie Bowman, from the Port of Seattle; Robert Ezelle, with 
the Washington Department Emergency Management; John Hairston, 
with the Bonneville Power Administration; Carl Imhoff, from 
Pacific Northwest National Lab; and Scot Rogers, with F5 
Networks. I look forward to hearing everyone's comments and to 
the discussion we are going to have today.
    I want to welcome the Secretary to the Pacific Northwest 
and thank him for coming to visit us. We are very proud of our 
history of innovation in the Northwest and the energy mix of 
our electricity grid.
    We have already had a busy morning. Secretary Moniz and I 
just recently visited the Bullet Foundation and discussed some 
of the smart building and zero energy building developments 
happening in the Northwest. Later, we will go over to the 
University of Washington to see more great innovation and then 
to the Tri-Cities tomorrow to look at the Hanford site and 
Hanford issues.
    It is not every day that an Energy Secretary makes two days 
available for a particular region of the country, but I think 
our region deserves to have that much attention because of the 
challenges and the level of innovation that is happening here.
    Mr. Secretary, before I begin my formal remarks, I want to 
thank you again for making so much time for us and for your 
great service to our country.
    Secretary Moniz. Thank you for hosting me.
    Senator Cantwell. With that, we will start the hearing 
which, as I said, is really a hearing to talk about updating 
and securing our critical infrastructure and energy resources.
    The United States is experiencing a very dramatic 
transformation in how we produce and transport energy. Many of 
these changes are positive. A more modern grid enables greater 
quantities of clean sources of energy. Consumers are able to 
more efficiently use energy and choose low cost alternatives to 
meet their needs.
    We also know that these changes can produce greater stress 
on our energy transportation infrastructure. For example, crude 
by rail or pipeline challenges.
    The energy industry and federal and state and local 
governments must work more closely together on these to update 
our energy infrastructure to satisfy demands for reliable, safe 
and affordable energy.
    As I mentioned, many of these issues are discussed in the 
Secretary of Energy's Quadrennial Energy Review, issued last 
year to communicate the many, many energy-related challenges we 
face. Today we are going to talk about three of those specific 
challenges, those that really concern us here in the Northwest.
    First, we are going to discuss the pressure that increased 
domestic production of oil has been placing on our rail system, 
everything from pushing commodities off the rails to issues of 
public security. The energy transformation the nation is 
experiencing is impacting the transportation infrastructure, 
and we, in the Northwest, know how much it is impacting us.
    Last year the Quadrennial Energy Review concluded that 
increased domestic oil production had altered transportation of 
liquid fuels and for us, in fact, from 2010 to 2015, rail 
shipments to the West have increased by 10,000 percent. That is 
almost a mind boggling statistic.
    We went from having almost no prior train oil traffic to 
having almost 20 trains a week going through every major 
population center in our state. Cities like Vancouver, Spokane 
and Seattle are very concerned about the safety of these oil 
trains and the high profile of incidents that have occurred 
across the nation including a recent derailment that happened 
in Mosier, Oregon. Twenty-six cities in our state have already 
passed resolutions expressing concern or just outright 
opposition to oil trains. This is something even the President, 
when he was here recently, heard about.
    The second issue we want to focus on, as it relates to our 
infrastructure, again called out in the Quadrennial Energy 
Review, is the need to enhance and prevent cyberattacks. A 
successful attack on our grid, as we know in the Northwest, 
could have catastrophic outcomes. According to the University 
of California, Berkeley, power disruptions already cost our 
U.S. economy $96 billion annually.
    Today's economy depends upon a well-functioning and robust 
electricity grid. As we continue to grow more reliant on the 
Internet to manage the grid and energy-consuming products, 
cybersecurity will become even more important.
    The Quadrennial Energy Review noted that in 2013, 151 
different cyber incidents involving the energy sector were 
reported to the Department of Homeland Security. I know there 
is an ongoing effort by the Secretary, working with our 
national labs and Homeland Security and various industry, to 
work on preventing cyberattacks in the future.
    But I think we are here today to discuss the ideas that we 
should be pursuing as our information age architecture 
continues to grow, that our investment in cybersecurity should 
continue to grow. Today almost everything and everyone relies 
on a well-functioning electricity grid. Our hospitals, our 
first responders, our water treatment facilities, fueling 
stations, transportation communications, everything will be 
impacted by a prolonged blackout.
    As we will hear from F5 this morning, most of our 
investment to date has been focused on protecting the security 
of our networks. Much more needs to be done to invest in the 
security of our software systems. Software attacks are growing. 
State agents, acting on behalf of foreign governments or 
terrorist organizations, have attempted almost on a daily basis 
to hack into our electricity grid.
    We have heard stories that maybe the Russians are behind 
the attacks on computers at the Democratic National Committee 
and that the North Koreans were involved or perhaps involved in 
the Sony system hack two years ago. We need to redouble our 
efforts to thwart not only cyber but physical attacks against 
the grid as well and to make sure we are continuing to make 
investments to upgrade our infrastructure.
    I think the Secretary may also have some announcements 
about that today as it relates to Northwest companies and 
continuing to make that investment. But we do have many, many 
Northwest companies that, from big data to Smart Grid, are 
trying to help build out the infrastructure that will keep us 
ahead of some of these attacks.
    Finally, as the climate continues to change, more attention 
needs to be paid to the impacts of that and natural disasters, 
severe weather, all of these things, also impact our energy 
infrastructure. We know in the Pacific Northwest what a one-
degree change in temperature means for snow melt and what a big 
impact it has on our hydro system.
    Government has an obligation to coordinate with the private 
sector to reduce the impacts of natural disasters on our energy 
infrastructure. This is especially important for us in the 
Northwest where we are susceptible to earthquakes, fires, 
droughts, floods and landslides and getting the energy system 
up and operating again is critical.
    Secretary Moniz is going to, I believe, release a report 
today about the Department of Energy's (DOE) recent Clear Path 
IV exercise. This exercise examined how well the Pacific 
Northwest energy sector might respond to a massive earthquake 
associated with a tsunami. The findings suggest that we have 
more to do to enhance our energy security but clearly the 
Federal Government needs to play a role in helping us get that 
plan into action.
    We are sitting in the middle of the Cascadia subduction 
zone which can produce very strong earthquakes and 
corresponding tsunamis, and an event of this magnitude could 
wipe out the infrastructure that brings electricity and fuel 
for a very long time. The Department of Energy's findings from 
its Clear Path IV exercise are particularly illuminating.
    First, we need to help the energy sector assess the damage 
from natural disasters more quickly and more accurately to 
facilitate the restoration of service. The Pacific Northwest 
National Lab is developing technology on this that will help 
expedite those assessments.
    Second, the Federal Government needs to use its resources 
to enhance the effect of the state and local industry efforts 
to restore the energy infrastructure. We all know what happens 
when we have a storm and the amount of time we have tried to 
cut down on getting electricity grids back up and operational 
by coordinating with utilities all throughout the region. 
Imagine this on a much grander scale.
    Third, the Department of Defense and other agencies can 
provide aviation and maritime resources to transport and 
replace equipment such as electric transformers and hard hit 
areas not able to be reached by road. Federal agencies can also 
help make sure that we have enhanced infrastructure and 
coordination for the restoration of those energy sector areas.
    I look forward to hearing more about this report from the 
Secretary.
    We are already working on some of these ideas in Congress. 
We just recently passed out of the Senate a comprehensive 
energy bill, the first one in nine years, and this bill is now 
in conference. It includes important provisions for doubling 
our efforts on research for the grid and specifically targeting 
cyberattacks. It would fund modernization to make the grid more 
flexible in the cases of emergency. It also puts the Energy 
Secretary in charge of developing and implementing a response 
for energy emergencies. So I am so pleased that he is here 
today to discuss that. We also, in the bill, make sure that we 
continue to focus on upgrading our energy infrastructure as it 
relates to the grid and a workforce that it will take to 
accomplish that.
    Again, we want to welcome the Energy Secretary here today, 
and thank him for coming to the Northwest and looking at all 
the innovation that the Northwest has to offer. For example, we 
just toured a smart building. The Energy bill would upgrade our 
Smart building efforts through the Department of Energy's help 
and hopefully reduce the amount of energy used. About 40 
percent of all energy is consumed now in buildings.
    Mr. Secretary, again, thank you for being in the Pacific 
Northwest. Our hearing process is usually five minutes for 
opening statements, even for a Secretary, but today we are 
waving that rule. We are in the Northwest, and we are going to 
make our own rule.
    Please use whatever time you would like this morning to 
present your testimony and discuss any issues you think are 
relevant to today's subjects.

          STATEMENT OF HON. ERNEST MONIZ, SECRETARY, 
                   U.S. DEPARTMENT OF ENERGY

    Secretary Moniz. Great.
    Well thank you, Senator Cantwell. I really appreciate the 
opportunity to address the Department of Energy's 
responsibilities for helping the energy sector prepare and 
respond to a wide range of threats and hazards at a time, as 
you said, of rapidly changing energy systems, dramatically 
increased oil and gas production, driving exports, engaging new 
geographies requiring infrastructure development. Market 
structures are shifting. Natural gas displacing coal. Dramatic 
renewables growth. Efficiency, challenging business models. 
It's really one of the most dynamic times, I think, we've ever 
seen in the energy system. And as you have said, that spills 
over into infrastructure challenges that we will discuss today.
    But I do want to take the opportunity, given the lack of a 
5-minute clock, to also thank you for collaboration and for 
your leadership in this and in other issues and particularly 
single out your commitment to innovation. I think we are very 
well aligned on that. And also your leadership in emphasizing 
the regional nature of innovation and our opportunities to 
improve regional ecosystems here in the Northwest, but also 
across the country. We're going to need that to succeed in our 
energy and climate goals. So again, thank you for all of that, 
not to mention a great time here in Seattle.
    So, as President Obama has pointed out, our energy and 
communication systems enable all other infrastructures to 
function. And of course, communications in turn, depend upon 
electricity. So, if we don't protect the energy sector, we're 
putting, essentially, every other sector in the economy in 
peril.
    When the DOE was established in 1977, the nation's energy 
vulnerability was perceived mainly to be the threat of physical 
disruption of oil supplies. Though DOE did inherit emergency 
authorities from precursor agencies, and I'll come back to 
those, the only reference to emergency response in the DOE 
Organization Act was direction for DOE to develop ``an 
effective strategy for distributing and allocating fuels in 
periods of short supply.'' So very, very narrow reference to 
the issues of those days.
    Now fast forward to this century, and we face a very 
different set of threats to our energy systems. In response 
there are now laws, actions and Presidential directives that 
are focused on threats such as severe weather, natural 
disasters, EMP, aging infrastructure, cyber and physical 
threats. So it's a considerably broadened threat spectrum that 
we need to consider.
    We need to make energy infrastructure investments 
commensurate to the critical role of that infrastructure and to 
today's threat environment. In particular, the reliance of all 
of our critical energy infrastructures on electricity places a 
very high premium on reliable, modern and hardened electric 
grid resistant to the continually evolving cyber threats.
    And, I'll come back to this later, that is why in the 
second installment of the Quadrennial Energy Review, that you 
referred to earlier, we are focusing on the electricity system, 
end-to-end, including the entire threat surface. So that is 
something that, I think, we get, we share an appreciation of 
that priority.
    Now DOE does have some long standing emergency authorities. 
During emergencies the Department has independent authority to 
order temporary electricity connections, to make exchanges of 
crude oil or petroleum products from our reserves, to assist 
entities in procuring necessary energy materials to maintain 
supply during an emergency and to control nuclear materials.
    We also have authorities that require a Presidential 
finding including orders to protect or restore the reliability 
of critical infrastructure, sales from the petroleum reserve, 
allocation of energy materials in the civilian market and 
allocation of natural gas and fuel switching in power plants. 
So those can all follow a Presidential determination.
    Finally, DOE has a consultative role for Jones Act waivers 
and a concurrence role for fuel waivers during emergencies. Now 
these authorities have been used many times. The Department has 
used its independent authority to connect temporary electricity 
lines, for example, to restore power after hurricanes like Ike, 
Katrina and Rita. After Super Storm Sandy, the Department 
loaned 120,000 barrels from the Northwest Home Heating Oil 
Reserve, NHHOR, to the Department of Defense for use in 
emergency responder vehicles, essentially low sulfur diesel 
fuel.
    DOE also has had legislation and directives related to new 
emergency response authorities. The California electricity 
crisis of 2000-2001 actually led to the use of multiple 
authorities deriving from the Federal Power Act, the Defense 
Production Act and the Natural Gas Policy Act.
    Now with regard to new authorities and responsibilities, 
the FAST Act that you referred to, the Transportation bill, 
provides DOE with a new authority to protect critical 
infrastructure against cyber, EMP, geomagnetic disturbance and 
physical attack threats. These authorities do not apply, 
however, to natural disasters other than geomagnetic storms. So 
while these authorities are welcome, they do create an 
asymmetric situation for authorities for natural disasters and 
malevolent attacks even though the outcomes could be similar.
    The 2015 Balanced Budget Act directs DOE to establish a 
strategic petroleum reserve modernization program to protect 
the U.S. economy from the impacts of emergency products supply 
disruptions, and I will return to this later.
    Finally, in terms of new responsibilities and authorities, 
President Obama has addressed these issues through Presidential 
Policy Directive 21 which identifies DOE as the sector-specific 
agency for energy infrastructure, making it the federal lead 
for the prioritization and coordination of activities to 
strengthen the security and resilience of critical energy 
infrastructure.
    The DOE also serves within the Administration as the lead 
agency for Emergency Support Function 12 which facilitates 
recovery from disruptions to energy infrastructure. During a 
response operation the Department works with industry and 
federal, state and local partners to assess disaster impacts on 
energy infrastructure, coordinate response to expedite 
restoration and to monitor and provide situational awareness of 
impacts to key decision-makers. The Department deploys 
responders who work directly with affected utilities and local 
officials on the ground during a disaster. Our response force 
is entirely voluntary and we are training right now nearly 100 
members of our staff to be prepared to deploy for all hazard 
contingencies.
    Over the past two years our Deputy Secretary and I have led 
a deliberate effort to strengthen our emergency response 
capabilities and our critical partnerships with the energy 
sector. With 90 percent of the nation's power infrastructure 
privately owned and operated, coordinating and aligning efforts 
between the government and the private sector is necessary to 
be effective in emergency response.
    Our challenge here is speed. If we have a government 
process that takes too long to share information about dynamic 
threats, then we're going to fail to protect our 
infrastructure. Our solution is to provide tools, information 
and practice so that companies are aware of risks as soon as 
they're identified. We can bring together information across 
the Department and across the government and then take action 
together. We also partnered with state, local and tribal 
governments with an updated Energy Emergency Assurance 
Coordinators MOU that I signed early this year. DOE will 
enhance robust training and exercising, bringing stakeholders 
together to plan for shared regional hazards, and I will come 
back to an example of that.
    One of DOE's core missions, and you've said it already 
several times which I appreciate, is to support innovation and 
that includes innovation to help our nation's energy security. 
So we are growing our partnerships with academia and the 
private sector and, of course, leveraging our 17 national 
laboratories in order to make our infrastructure more secure 
and resilient.
    At this time I will say that in this state we have one of 
our premier national laboratories, specific Northwest, East of 
the Cascades. You all should take a trip over the mountains and 
we will tomorrow, in fact, do that to visit that laboratory. Of 
course, it will require substantial additional investment over 
many years to expand transformational innovation that can 
outpace the dynamic threats that we face. And here I will say 
that across the board the President's Fiscal Year 2017 budget 
proposes the first increment of energy R and D funding to meet 
Mission Innovation goals, specifically a doubling of our energy 
related R and D over a five-year period. It also proposes 
regional innovation partnerships and again, Senator Cantwell 
has been a leader in advocating for this approach, no doubt 
helped by the fact that she anticipates this area would have a 
very robust regional response given all of the intellectual and 
other assets in this part of the country.
    This budget will provide a very strong foundation for 
addressing the infrastructure needs discussed here as well, 
again, as the broader clean energy investments needed for our 
economic, environmental and security goals.
    Today we are announcing $30 million of funding. That may 
actually have some additional funding added to it next year, 
but for today $30 million of funding for cybersecurity, 
including research and development and programs to develop 
energy professional education in cybersecurity. Two of the 
awards are in Washington State. They are the Schweitzer 
Engineering company in Pullman, Washington with a total of 
about $7.5 million for the company in developing its 
cybersecurity software products. That's a terrific development 
across the board but certainly as well here in Washington 
State.
    Now, robust exercises are also crucial to ensure industry 
and government are better prepared to work as a team during 
real world emergencies.
    In April 2016 DOE led Clear Path IV, an interagency 
exercise focused on testing and evaluating energy sector 
response plans in a scenario depicting a Cascadia Subduction 
Zone 9.0 earthquake and tsunami, the so-called really big one, 
made famous in the New Yorker article.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    One outcome of that was the importance of accelerating 
damage assessments immediately. And as you said, PNNL, Pacific 
Northwest Laboratory, is right now developing imagery tools to 
do just that, to bring new technology to bear on making fast 
assessments of damage so that responders can prioritize where 
they have to go in order to get not only energy up but to 
provide all the other services to our displaced people.
    Clear Path served to elevate energy sector participation in 
the subsequent Cascadia Rising exercise which was government-
wide in June. That really helped the entire Emergency 
Management Team to identify resource requirements for natural 
disaster.
    Today, as you said, we are announcing this is a summary, 
the Clear Path After Action report. I want to say that this 
Clear Path was very important. It was the first use of our, I 
mentioned earlier the Deputy Secretary and I have been 
reorganizing some of the response functions, that included 
putting together a unified command structure for emergency 
response. This was the first use of that command structure.
    To give you an idea of our complexity, it deals with 
operations, planning and logistics. But with the Office of 
Electricity, the emergency response activity in the Office of 
Electricity, our national Nuclear Security Administration, our 
Associate Under Secretary for Management Performance who deals 
with physical security, our CIO cyber activity, our 
intelligence activity and our management and administration 
activities which includes procurement. All of those offices 
which are spread out in the Department, have now, we're trying 
to, we are organizing under this unified command structure that 
was exercised for the first time in Clear Path IV.
    I might add that in addition, of course, to their 
participation, for the first time in the Clear Path series, we 
held it out in the field. This was headquartered out of 
Portland, in Bonneville, in the field but it was regional. And 
of course, that allowed us, really, to much more effectively 
bring in state and local responders into our exercise out here 
in the field. We also had the energy industry the first time, 
not only electricity, but the oil and gas sector. We had Canada 
involved and of course, multiple federal agencies.
    So this was a what you need to do so that we're not trying 
to do it for the first time in an emergency, very effective, as 
I said. It highlighted the importance of immediate assessment. 
But it also brought to the fore other things, for example, 
dealing with industry. The need for waivers. There can be anti-
trust issues, particularly in the oil and gas sector. We have 
to be prepared in advance so that we can do those with speed. 
So that was really very important, and I believe we need to do 
much more of this in the future.
    Now I'll add that unique to DOE we actually own critical 
assets in the sector that we are supporting and particularly 
relevant in, again, this part of the country our preparedness 
and response activities for our power market administrations 
like Bonneville directly overlap with what we are trying to do, 
of course, with the broader energy sector.
    So, another important direction, we believe, that we are 
emphasizing over the last couple of years is to develop what we 
call enterprise-wide approaches. That unified command structure 
is an example of an enterprise-wide approach but the idea here, 
in general, is to bring all of our resources into play, 
including those at our national laboratories.
    Two examples, two additional examples, of that is we have 
formed an integrated Joint Cyber Coordination Center. It's a 
collaborative, intelligence-driven approach to cybersecurity to 
protect the entirety of the DOE attack surface including DMAs 
and we are working toward a consolidated emergency operations 
center to allow our unified command structure to operate out of 
a single facility.
    Finally, let me turn to the issue of managing our strategic 
energy resources, reserves. We already mentioned that the 2015 
Balanced Budget Act, drawing upon a recommendation of the 
Quadrennial Energy Review (QER), supports modernizing the 
petroleum reserve. The petroleum reserve physical assets date 
back many decades, need modernization and frankly, we should 
also, in my view, revisit some of the operating procedures of 
the petroleum reserve.
    But the Balanced Budget Act, again, following up our QER 
recommendation, has two phases. Life Extension Phase II will 
address unanticipated SPR (Strategic Petroleum Reserve) related 
equipment failures that have been impacting the reserves 
operational readiness capability. Second, marine terminal 
distribution capability enhancements will add dedicated marine 
terminals in each of the SPR's three distribution systems to 
address the impacts of changes in the U.S. midstream oil 
movement that have significantly reduced the effective 
distribution capacity of the SPR in an emergency.
    And just last Friday, again, these hearings have a way of 
focusing the mind. Just last Friday, the Department approved 
what's called CD-0, the first stage of project management 
protocols which establishes the mission need for the marine 
terminal distribution capability. CD-0 was already passed for 
the modernization, the life extension phase, and we will soon 
submit a report to Congress on DOE's long term strategic review 
of the SPR.
    So in conclusion, let me say that upon my return to DOE 
after a 13-year absence, I was struck by the imperatives of a 
new and complex mission for the Department. Almost nothing that 
I described in this testimony was present when I left the 
Department in January 2001. But ensuring resilience, 
reliability, security and emergency response with significant 
operational responsibilities is really a new and very important 
direction for the Department. And again, thank you for your 
support.
    The first installment of the QER, again, addressed these 
issues of infrastructure, resilience, reliability, safety and 
asset security. And again, many of those recommendations are in 
progress. Some of them require new statutory authority. We've 
received some statutory authority, and these will improve 
energy infrastructure resilience.
    The second installment, as I mentioned, is on the 
electricity system, end-to-end, and these are all critical for 
emergency response and for meeting our climate goals. However, 
the fragmentation of our current emergency responsibilities and 
assets within the Department, partly reflected in that unified 
command structure, does present a management challenge. And so, 
I want to say that we continue to analyze organizational 
options in light of these complex, cross-cutting and evolving 
requirements.
    The combination of increasing responsibilities and 
fragmented management arrangements creates some risk to the 
Department is not adequately resourced to effectively carry out 
its responsibilities, and that's an area where we look forward 
to working with this Committee and with Congress as a whole to 
provide an appropriately resourced energy emergency response 
capability as an essential component of a robust energy 
infrastructure supporting a 21st century economy.
    Thank you for your graciousness in affording me the time to 
provide somewhat longer testimony. But it really is a broad 
scope of activities, and again, we look forward to solidifying 
this going forward with your help and the Committee's.
    Thank you.
    [The prepared statement of Secretary Moniz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Thank you, Mr. Secretary. Thank you for 
that testimony, and thank you for your work on the Quadrennial 
Energy Review--the plan for our energy infrastructure and where 
we are as a nation. That, I think, is a very good blueprint to 
start our discussions as a nation of where we need to go.
    I would like to unpack that a little bit with your 
testimony. To me, reading the report, which is voluminous and 
is available for people online, I think they can get access to 
it or at least the key recommendations. It seems to me that as 
you tried to allude in your testimony, coming back to DOE after 
some absence----
    Secretary Moniz. Thirteen years.
    Senator Cantwell. Thirteen years, that we have several 
phenomenons going on. One is just this issue of we wanted to 
get off of foreign oil. We said we wanted to produce our own, 
and basically we had an infrastructure through the Gulf for 
importing oil and delivering it.
    Now we are in a different situation and that, in and of 
itself, is causing competition on the rails, competition even 
between energy products. There are instances where oil is 
pushing off coal and coal and oil are pushing off agriculture 
products and a great deal of complexity. How would you 
characterize that shift in demand on our infrastructure? 
Significant? I mean, how would you characterize for the 
American people how big a challenge that change has meant to 
our infrastructure and some of these security issues?
    Secretary Moniz. Yes, and by the way, I'd like to, once 
again, thank you and congratulate you for reading the 
Quadrennial Energy Review on the floor of the Senate which was 
much appreciated.
    The increased production of oil and natural gas in the 
United States has obviously been a major story in terms of our 
economy and also environment in the sense that the natural gas 
boom, in particular, has led to a displacement of higher carbon 
coal with lower carbon natural gas producing less CO2 
emissions.
    However, I mean, the big story with regard to 
infrastructure is not simply the scale, it's the fact that it's 
happening in different parts of the country. And so, it has 
changed flows completely.
    I mentioned one example here already in terms of the 
petroleum reserve modernization. We have oil flowing in 
opposite directions in many of our distribution systems which 
is why we need to have a distribution system made for the 
current realities. Another is that it used to be that oil and 
products flowed from the Gulf elsewhere. Now we have 
considerable flows to the Gulf. Third, we have, still with oil, 
we have an addition, as you know very, very well, flows going 
east and west without established pipeline infrastructures and 
therefore, bringing in trains substantially.
    Now it is true that oil by train has gone down very 
substantially nationally in this last year but not necessarily 
regionally, particularly here. But the magnitude of these 
changes, you mentioned up to 20 trains here in the Northwest. 
Just recently I was visiting one of the largest, the largest 
refinery complex on the East Coast in Philadelphia. And the 
changes are--clearly stress the system.
    On the one hand, that one refinery was receiving four unit 
trains per day of Bakken oil. And now suddenly, it's dropped to 
one as they have resumed importing from Africa light oil. So, 
it's really hard to keep up with these major changes and of 
course, as you have different infrastructure we need to build 
out in different ways.
    I didn't mention natural gas but a similar thing there is 
that, again, all gas until a decade ago, fundamentally, flowed, 
you know, mostly out of the Gulf and some in the West in the 
Rockies, in New Mexico, in Colorado, et cetera. And now you 
have incredible production out of Pennsylvania, part of West 
Virginia and Ohio. The infrastructure, frankly, has not yet 
completely caught up to that. So these are big strains on the 
system, and we are feeling it.
    Senator Cantwell. I am glad that you characterize them as 
big strains because we definitely feel that way in the 
Northwest and this, in and of itself, I think, is a big shift. 
I also think that cyber is a big shift and change too, but we 
will get to that in a second.
    But on this issue, one of DOE's responsibilities is, 
obviously, helping us understand the properties and 
characteristics of some of these products.
    One of the things that you are working on is this issue of 
oil volatility. I am particularly concerned about the level of 
volatility in Bakken crude, because oil shipped from the Gulf 
basically doesn't have the same level of volatility when it is 
shipped. But with the advent of Bakken crude in the upper 
Midwest, we are seeing the volatility of the Reid Vapor 
Pressure, the pound per inch of pressure, well over 13 percent 
in some instances.
    Can you elaborate on what DOE is doing to measure that 
volatility and what we should be looking for to make sure that 
we have a vapor pressure that is not going to impact the level 
of explosions and derailments and things of that nature that we 
have seen in some other areas of our country?
    Secretary Moniz. Well I certainly wish I could give you the 
final results of the study today but that still is, probably, 
about a year away.
    Now, just again, to make, I mean, you know this, just to 
make it clear to everyone else that the, of course, the 
Department of Energy does not have the regulatory authorities 
but right at the beginning, and I think with a lot of 
encouragement as well from Congress, appropriately, we were 
asked to partner with the Department of Transportation, and we 
have, to explore the science involved in the transport of oil 
and frankly, it would apply as well to other flammable liquids 
because there are a lot of others that are transported as well 
and to try to understand the implications of that science for 
further steps that the Department of Transportation, for 
example, might take.
    So the study is being carried out, is being led by Sandia 
National Laboratory. It is looking at the characteristics of 
the oil, volatility, as you say. And basically, I think, it's a 
question of looking at this particular crude oil which has 
quite of bit of dissolved gasses in it. So looking at that, at 
the qualities is very important.
    However, it's also important to understand how and when, 
for example, the oil is sampled because as you go through 
different processes the characteristics can change so that's 
also part of what's being looked at. And this may be able to, 
hopefully, lead to some insights into how the sampling 
protocols are managed which then can impact whether further 
processing is required or not. North Dakota as a state has 
taken some steps in terms of processing certain of the tight 
oils. And so, I think----
    Senator Cantwell. Well I don't think anybody in the 
Northwest----
    Secretary Moniz. Yeah.
    Senator Cantwell. Wants to leave it up to the State of 
North Dakota.
    Secretary Moniz. No, no.
    Senator Cantwell. To figure out what the standard is, so--
--
    Secretary Moniz. No, so our job is to, right now, try to do 
a thorough job on the science and engineering aspects. That 
will include going to combustion tests in this next phase at 
Sandia which has, by the way, a long history of doing 
combustion field tests and studies.
    And then I'd love to be able to accelerate it, but science 
takes time and it's probably going to be a year until we have 
the final results. Then those have to be translated at state 
and federal levels into further action.
    Senator Cantwell. I noticed that a Sandia National Lab 
report found that ``currently used methods for assigning crude 
oil classifications are often inaccurate'' and that there is 
not scientific agreement on the volatility of crude oils, like 
Bakken crude.
    How do you think we might be able to build scientific 
consensus, that we might be able to get more discussion going 
about this issue because clearly I view this as a resistance by 
those who think they can just ship Bakken crude on the cheap. I 
note that Wall Street will not finance a deal with Bakken crude 
at this level. They require that it has to be nine percent 
vapor pressure. As I said, other incidents of this kind of 
shipment never exceeded 13 percent. Now we are sitting here 
arguing over whether volatility matters or not. What can we do 
to get the rest of the scientific community, while we are doing 
this review, to help in the discussion so that we don't end up 
with your report and then we are still doing this leg work 
after that 12-month period of time?
    Secretary Moniz. Well first of all, I think the report 
you're referring to was the Phase One report from Sandia which 
was basically a literature review. It was not original work but 
bringing together literature. And again, I believe the focus 
there was on the fact of the large amount of dissolved, non-
condensable gasses. So that was the characteristic, I think, 
they were seeing. And that's exactly what is driving now them 
in their actual scientific work in terms of the 
characterization.
    I just really can't give a clear answer in terms of what 
one might do in terms of the, you know, I mean, prior to having 
the results for you. I understand there's a tension between 
getting the science done right and doing it as fast as one can, 
but doing it right. Obviously the desire to take action clearly 
was not that long ago when the derailment in the Columbia Gorge 
happened just in June, I think it was.
    And so, again, nationally there's been a decrease in oil 
shipments by rail. That has not been the case in the Northwest.
    And it's also the case that, I think to be fair, I think 
the railroads, some of the railroads for sure, have made some 
pretty substantial investments really over the last year. 
Issues you referred to earlier, in fact, about commodity 
competition in the railroads, I mean, that was a very stressful 
period in 2014/2015 when the, I think, frankly the whole system 
was, again, taken by surprise at the rapid increase in the 
demand for trains for transporting oil.
    I think that's been somewhat sorted out in terms of the 
commodity issue. But your issue in terms of any intermediate 
regulation, I mean, the Department of Transportation clearly 
has taken some steps in terms of rail cars, speed, speeds in 
different places and the like. And yet, we still seem to have 
some of these derailments, presumably caused by track issues.
    Senator Cantwell. We are only going to ask you to swim in 
your lane today.
    Secretary Moniz. Yeah.
    Senator Cantwell. As it relates to----
    Secretary Moniz. Right.
    Senator Cantwell. Helping us on the energy verification. 
But I will say that this issue, as it relates to commodities, I 
don't think is over, and I do think that your work on the 
Quadrennial Energy Review shows that our infrastructure cannot 
meet this level of demand in shipment without pushing product 
off.
    Again, this is probably not something that DOE can solve as 
it relates to----
    Secretary Moniz. Right.
    Senator Cantwell. These issues immediately. But this issue 
of----
    Secretary Moniz. Right.
    Senator Cantwell. Assessing our infrastructure, assessing 
our needs and, as you say, can shift at any moment as well.
    Secretary Moniz. Yeah, it's----
    Senator Cantwell. As it relates to source.
    But I go back to what you commented on that this is a 
pretty big shift for the United States of America. We wanted 
energy independence. Well, we've got it. But now we have our 
own safety and security issues right here in the Northwest with 
a 10,000 percent increase in the amount of oil train traffic 
coming through here.
    When we have a city council in Spokane who is saying we are 
going to fine a train for coming through period, that is their 
ballot measure. We have a chart here.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1997.032
    
    Secretary Moniz. Yeah, I was going to say it's----
    Senator Cantwell. Just to take a second.
    So Bakken Oil comes from the upper Midwest, but it goes 
through every major metropolitan area. It goes through Spokane, 
down through the Gorge which is a very challenging, scenic area 
into the Columbia River. So the rescue operations are very 
challenged. Through Clark County, Vancouver and then up through 
here and all the way up to refineries. We have four refineries 
in the north part of our state. It is hitting every major city 
on those 20 trains per week.
    I am sure North Dakota producers probably think that they 
are going through a very remote, rural area of their state, 
across also very remote, rural parts of the North United 
States, but that is not what happens when they get to 
Washington because of the Cascades.
    Secretary Moniz. Yeah.
    Senator Cantwell. They have to go through every major----
    Secretary Moniz. Yeah.
    Senator Cantwell. As somebody said on one of my recent 
trips to Spokane, just about everybody in Spokane lives two 
blocks from the railroad tracks. I mean, that is their view of 
how close the oil shipments are.
    This issue for us has become very front and center with 
every mayor, city council and community in our state as it 
relates to this safety and security issue. So we will leave 
this.
    Secretary Moniz. Yes.
    Senator Cantwell. To the next panel.
    Secretary Moniz. Yeah.
    Senator Cantwell. And discuss it more with you later.
    Secretary Moniz. If I may just add?
    Senator Cantwell. Yes.
    Secretary Moniz. Just that first of all, I think, it's very 
clear and the President has certainly been very clear in saying 
that we need to invest in our infrastructure. I mean, and we 
need to invest in infrastructure that is reliable, safe and 
resilient for the 21st century and not for the 20th century.
    Secondly, in terms of the movement of commodities and, 
again, you know this very well from the Quadrennial Energy 
Review, it is also issues like inland waterways where 
tremendous investments are needed to move commodities around.
    Senator Cantwell. Well and I hope we can, with your work, 
we are separately pushing the Department of Transportation to 
make an interim finding about the volatility. We think they 
should be doing something about it now but we are also going to 
double our efforts working with you to make sure that we are 
getting as much scientific information as possible. As you 
said, the big shift means that we need to invest in 
infrastructure. But the big shift also means we need to stop 
and say, is this safe enough for transport?
    The 10,000 percent increase is voluminous throughout the 
West Coast. You could have this hearing in Oregon or California 
and you would have the same discussions. You would have the 
same city councils, the same people proposing resolutions on 
this.
    So I think we need to make sure that we are making it safe 
as well, and we will continue to work with your other cabinet 
partners to make sure that we are getting that message across.
    Before we invite the next panel up though, I do want to 
talk to you about the cyber issue, this whole issue of a 
unified command.
    I don't know how you would characterize this as a shift in 
our nation, but again, I would consider it a pretty big shift 
because now here we are, a big energy source. Electrification 
was always important, but now it is networks and handheld 
devices and smart appliances and all sorts of things, all 
connected to a grid that could, all of a sudden, be a target of 
a major attack.
    So when you talk about your unified command structure and 
the challenges of that, who are the partners? Where would the 
single entity be? How do you process information on a daily 
basis?
    Secretary Moniz. Well, the unified command structure is 
broader than cyber that was for the entire, our entire 
emergency response assets. And it's not a physical location, 
other than when there is an emergency in the emergency 
operations center control room that, again, we are trying to--
which historically in the Department of Energy has always been 
run by the Nuclear Security people because of our long standing 
need to respond to nuclear incidents. But we think that we need 
to really integrate response across our threat spectrum. That 
would include nuclear but it includes energy infrastructure, 
cybersecurity and the like.
    Now within cybersecurity we now have this integrated Joint 
Cybersecurity Coordination Center. I may have missed a C, iJC3. 
And that has been--the point person, I'm putting them together, 
has been the CIO but working with all the cyber-relevant 
actors, and I want to emphasize that does include the 
intelligence activity.
    But very importantly, this involves bringing in the 
laboratory experts, the PMA experts. So the ideas that we are 
saying that the cybersecurity is really an enterprise-wide 
problem, and we need to have them all.
    It's a virtual team. It's not a physical center but it's a 
virtual team bringing together all the best assets to address a 
cyber challenge. And I think you alluded to it, the last data I 
saw in 2013, but over half of the cyber incidents reported were 
on energy infrastructure. So, it's a tremendous problem that we 
have.
    Senator Cantwell. Okay.
    Secretary Moniz. What we are doing is we are trying to 
bring together, again, all of our assets.
    Senator Cantwell. Okay.
    Secretary Moniz. It would be helpful to have this more 
unified operations center, yeah.
    Senator Cantwell. Because you are talking about both DOD, I 
am assuming, and our other federal agencies involved in 
security efforts working in coordination.
    Secretary Moniz. And DHS, we do a lot with DHS, in 
particular. Yeah, DHS has got a major role here. So we work 
with them.
    Senator Cantwell. Again, where would you characterize this 
as a shift in energy policy, this electrification of our 
economy and the challenge of cyber?
    Secretary Moniz. If we kind of change subjects, but 
relevant to this. If we think about our pathway toward deep de-
carbonization, let's say on a midcentury time scale, there are 
two elements that, to me, are, kind of, part of any possible 
solution.
    One is real progress on the demand side, energy efficiency. 
We're not going to get there without real demand side progress. 
But we're also not going to get there without, essentially, a 
very deep de-carbonization of the electricity sector and 
therefore, an expansion of the electricity sector's role in 
other parts of the economy, like transportation, for example, 
because then it will be drawing upon an essentially carbon-free 
system.
    So, electricity is only going to become more and more 
central to all of these issues. And that, of course, brings us 
to the whole threat spectrum, including cyber which we know is 
a very, very significant issue. And frankly, as that system 
itself becomes more and more, I would say, technologically 
complex it's going to have increasing distances, for example, 
to bring, you know, renewables over large distances. It's going 
to have distributed generation; it's going to have storage; 
and, it's going to have a whole new layer of detectors, 
sensors, control systems, maybe distributed decision-making to 
be able to balance this entire system.
    That's all great. It offers new services. It can support 
the Internet of things with everything hooked up, but obviously 
it also opens up vulnerability, especially in the cyberspace.
    So I think that's what we're going to have to face and 
frankly, stay ahead of the attack spectrum. So it's a huge 
priority for us and I think for the country.
    Senator Cantwell. Thank you.
    Secretary Moniz. Yeah.
    Senator Cantwell. Well thank you, Secretary Moniz. I think 
what I am going to ask you to do is come up and join me, if you 
will, up here and we will proceed to the second panel of 
witnesses. That will also give Secretary Moniz a chance to have 
a little opportunity on the other side of the dais here.
    [Laughter.]
    Senator Cantwell. And ask some questions of our witnesses 
on these subjects and maybe even get into more of a discussion 
on some of the challenges that we face.
    Secretary Moniz. Sure.
    Senator Cantwell. I see General Lowenberg out in the 
audience. Thank you for being here.
    There are many others who are here today in the audience 
who are responsible for these kinds of shifts and changes and 
are doing good work in the Northwest. So thank you all for 
coming and talking about how we, as a region, are developing 
some of the solution services and networks that are needed.
    I introduced the panel before, but I think we are going to 
start with Mr. Robert Ezelle, who is the Washington Military 
Department's Director of the Emergency Management Division. We 
will then go to Ms. Stephanie Bowman, who is with the Port of 
Seattle; Mr. John Hairston, who is with the Bonneville Power 
Administration; Mr. Scot Rogers from F5; Mr. Carl Imhoff from 
the Pacific Northwest National Laboratory; and Dr. Lynn Best, 
who is with Seattle City Light.
    With that, Mr. Ezelle, please lead us off.

    STATEMENT OF ROBERT EZELLE, DIRECTOR, WASHINGTON STATE 
                 EMERGENCY MANAGEMENT DIVISION

    Mr. Ezelle. Afternoon, Madam Chair and Secretary Moniz.
    For the record, my name is Robert Ezelle, and I'm the 
Washington Military Department's Director of the Emergency 
Management Division. I greatly appreciate the opportunity to 
speak with you today about two significant events that could 
impact our energy infrastructure.
    First are the impacts that could occur to Washington State 
and the Pacific Northwest following a magnitude 9.0 earthquake 
on the Cascadia Subduction Zone. Second, as we've already been 
hearing, are some potential consequences to the energy sector 
from a cyber event.
    A rupture of the Cascadia Subduction Zone (CSZ) will cause 
catastrophic damages all along the West Coast from British 
Columbia to Northern California. Damage from a CSZ rupture will 
greatly exceed damage from any natural disaster our nation has 
seen to date.
    Estimates are that our transportation infrastructure, 
communication systems, energy distribution, water, sewage and 
our health care system will be severely compromised or 
inoperative. Bridges will collapse, roadways will be rendered 
impassable, the coast will be cut off from the I-5 corridor and 
Western Washington will be cut off from Eastern Washington.
    We anticipate electric power failing across the region from 
significant impacts to both transmission and distribution 
systems. Restoration will be time consuming with urban areas 
being without power for weeks to months and outlying areas 
potentially requiring a couple of years before power is 
restored.
    Pipelines delivering fuel, oil and national natural gas 
will be compromised and possibly destroyed. This means we'll be 
left with only the fuel on hand in vehicles or storage tanks 
that have not ruptured. This has immediate implications to the 
response to a Cascadia event as fuel will be required for 
generators, response vehicles and a host of other needs.
    However, the most significant effect or impact of a CSZ 
rupture will be to the people themselves. Depending on the time 
of year we could see upwards of 10,000 fatalities from the 
resulting tsunami and from collapsed buildings and landslides. 
We estimate we will need to provide food and water to upwards 
of a million people immediately following the earthquake. That 
number will increase with each passing day as individual and 
family preparedness supplies are exhausted.
    We conducted a major exercise, Cascadia Rising 2016, from 
June 7th to June 10th of this year. We gained valuable lessons 
learned that will engage our preparation activities for years 
to come. But perhaps the most important thing we drew from the 
exercise was perspective.
    Our overarching priority immediately following a CSZ event 
will be to provide for the life safety and life sustaining 
needs of our populous. Each day that passes increases the 
vulnerability and the need of our residents. This puts a 
critical imperative on restoring our basic infrastructure 
starting with transportation, communications and electric power 
but it also greatly emphasizes the need for individual and 
family preparedness.
    Electric power is the enabling component of our 21st 
century lives. It also has key interdependencies with other 
critical infrastructure industries such as water and waste 
water services, natural gas supply and delivery and 
telecommunications technologies of all types. Without electric 
power our infrastructure cannot operate.
    The same goes for fuel distribution. A CSZ event will 
damage the major pipeline for delivery of jet fuel as well as 
natural gas pipelines and will, of course, disrupt 
transportation networks making fuel delivery by truck to 
existing depots all but impossible. And without fuel, our 
response efforts will grind to a halt.
    As I've emphasized, power and fuel are key to a successful 
response and recovery. Therefore, their provision and 
restoration has to be a top priority for us all.
    CR'16 emphasizes the need for detailed response or 
continuity of operations planning. This includes all levels of 
government from local through state to federal, non-
governmental organizations and private industry so that 
essential services can continue to be provided in the event of 
a disaster.
    Additionally, our lifeline sectors whether publicly or 
privately owned must work toward building resiliency. A 
resilient infrastructure can either withstand a major disaster 
or can be quickly restored in days or weeks rather than months 
or years.
    We've been talking about the catastrophic and the need to 
develop strong plans to build resiliency into our critical 
infrastructure. I'd like to touch on a couple of hazards, and 
we've already spoken about them today, that are not perhaps at 
the scale of a catastrophic event, but could have severe local 
or widespread consequences.
    The first of these is the transport of the crude oil by 
rail. We've seen graphically what can go wrong if there's an 
incident involving an oil train. This highlights the need for 
detailed planning, again, at all levels of government so that 
communities and states are prepared to respond when an incident 
occurs, such as the one near the Town of Mosier back in June.
    The need for the same level of planning also is required 
for cyber threats. In Washington State we've been hard at work 
there as well conducting cyber planning across the community of 
stakeholders. Organic within the Washington National Guard 
structure is a cyber protection unit whose capabilities can 
assess or assist with assessment and recommendations concerning 
industrial control systems. They have the expertise, 
relationship, security clearances and the credibility to 
partner and collaborate with the ICS community toward cyber 
preparedness.
    Most recently in Washington State in a proof of concept 
demonstration, our National Guard worked successfully with the 
Snohomish County Utilities District to assess their systems and 
provide them key suggestions on how they can harden their 
infrastructure against cyber penetration and exploitation.
    Madam Chair, I'd like to close by just thanking you for 
your tremendous support for our National Guard, particularly 
the attempts to stand up at a schoolhouse to address some of 
the cyber vulnerabilities and then, of course, your long-term 
support of the National Guard.
    This concludes my testimony, and may I answer any 
questions?
    [The prepared statement of Mr. Ezelle follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Thank you, thank you.
    Ms. Bowman.

         STATEMENT OF STEPHANIE BOWMAN, COMMISSIONER, 
                  PORT OF SEATTLE (WASHINGTON)

    Ms. Bowman. Good afternoon, Senator Cantwell and Secretary 
Moniz. My name is Stephanie Bowman, a Commissioner with the 
Port of Seattle. Thank you for the privilege of being here this 
afternoon.
    The Port of Seattle owns and operates facilities that play 
a critical role in facilitating the nation's trade. Our marine 
cargo facilities under the management of the Northwest Seaport 
Alliance are the fourth largest container load center in the 
country. Our port literally supplies goods to businesses and 
homes throughout the nation.
    On the aviation side, Seattle/Tacoma International Airport 
(SeaTac) served 42 million passengers in 2015 and is the 
fastest growing, large hub airport in the country. 
Additionally, SeaTac is a primary air cargo gateway for the 
Pacific Northwest facilitating the export of high value, time 
sensitive goods to Asia.
    The Port of Seattle facilitates--facilities serve as a 
lifeline to the residents of Alaska and Hawaii and any 
disruption in port operations due to a natural disaster would 
have serious consequences for those states.
    Alaska is especially dependent on our infrastructure with 
more than 80 percent of all water-borne containerized traffic 
that goes to Alaska moves across the terminals at the Port of 
Seattle.
    Given the critical role that the Port of Seattle plays in 
the regional and national economy ensuring that our facilities 
are resilient in the case of a disaster is a charge that my 
colleagues and I on the Port Commission take very seriously. A 
strong federal partnership is critical, and I'm grateful for 
the attention that you're giving to this issue today.
    Port infrastructure will be essential to the regional 
response in the event of a large scale emergency. SeaTac 
airport is anticipated to be a hub for relief efforts and our 
maritime facilities will also support the response and recovery 
missions assuming that they are still operable.
    Disruption of flight operations at SeaTac will send a 
ripple effect throughout the country's air transportation 
system given that our airport's role as a hub for both national 
and international flights, particularly our connection to Asia. 
Most importantly, it could cripple our collective ability to 
respond to disaster.
    I wanted to speak briefly about the Port of Seattle's 
emergency response planning. The Port of Seattle and our 
partners at the Port of Tacoma use nationally recognized best 
practices and utilize an all hazards approach to plan for and 
respond to any number of different emergency scenarios. 
Consistent application of these practices is reinforced through 
our robust and systemic training and exercise program that 
validates our ability to meet our responsibilities to the 
region.
    In the case of earthquakes our contingency planning is 
based on the risk associated with strong to major earthquakes. 
Our seaport facilities, as you know, Senator Cantwell, are at 
greater risk than the airport because they were built on 
liquefaction zones and are more susceptible to a tsunami.
    Given the strain that will be placed on the first 
responders in a disaster, we expect that we will need to be 
self-sufficient with our emergency response at the airport or 
seaport for at least 14 days.
    The airport, on the other hand, will be more likely capable 
of handling moderate to full disaster relief within 24 to 72 
hours, the level of operations at the airport with a focus of 
federal and military entities in the recent Cascadia Rising 
exercise that Mr. Ezelle just mentioned.
    Understandably, the magnitude of any quake will impact our 
ability to resume operations. A primary factor in successfully 
responding to an event is the effective coordination between 
the dozens of entities involved. That is why exercises such as 
Cascadia Rising are vital to enhancing the regional resilience. 
We are not going to be able to operate resilient airports and 
seaports without a strong partnership with the Federal 
Government.
    In addition to the critical role it will play in responding 
to a disaster, we are also dependent on the Federal Government 
to help fund our preparedness efforts and I wanted to speak to 
that very briefly. We ask that funding levels for these 
programs be maintained and that funding be awarded directly to 
local jurisdictions including ports. While there are few 
federal grant programs that focus on preparedness, the Port 
Security Grant Program is currently the main source of federal 
funding for all ports for an all hazards investments.
    However, many tyeps of projects necessary to support a 
comprehensive preparedness effort are ineligible under the Port 
Security Grant Program. Given this, the Federal Government, we 
hope, will--should consider creating critical infrastructure 
resiliency grant program and a national strategy to help 
funding decisions with prioritizing the nation's gateway ports 
which are at greater risk.
    Finally, I wanted to close, shift gears for just a few 
moments and close with a personal mention of my experience in 
Mosier, Oregon and just let you know that I was at Mosier in 
the--for the rail train derailment, and I'm happy to answer any 
questions. It had a pretty significant impact on my personal 
view in terms of both emergency preparedness but most 
importantly in terms of the response. And after the panel is 
through I'm happy to answer any questions about that 
experience.
    In closing, the Port of Seattle recognizes that our 
infrastructure impacts the national economy and has a unique 
role to play during a crisis. We stand ready to strengthen our 
partnership with the Federal Government, including the 
Department of Energy, to safeguard our critical infrastructure 
and protect our communities.
    I'm happy to answer any questions.
    Thank you.
    [The prepared statement of Ms. Bowman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Thank you, Commissioner.
    Mr. Hairston, thank you. Welcome.

       STATEMENT OF JOHN HAIRSTON, CHIEF ADMINISTRATIVE 
 OFFICER, BONNEVILLE POWER ADMINISTRATION, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Hairston. Thank you.
    Ranking Member Cantwell, Secretary Moniz, I appreciate the 
opportunity to testify today. My name is John Hairston. I'm the 
Chief Administrative Officer with Bonneville Power 
Administration.
    Bonneville is a federal power marketing administration 
within the United States of America Department of Energy which 
markets electric power from 31 federal hydroelectric projects 
and some non-federal projects in the Pacific Northwest. 
Bonneville operates and maintains an extensive high voltage 
electricity transmission system that integrates with every 
major electric utility in the Pacific Northwest as well as 
California and Canada.
    Bonneville plays a critical role in responding to disaster 
affecting the region's electricity grid. In my testimony today 
I will describe how Bonneville is protecting the electricity 
infrastructure and how it's preparing to respond to a 
potentially massive Cascadia Subduction Zone earthquake.
    Bonneville has hardened its electricity transmission system 
and is investing in seismic related research for more than 20 
years. We began assessing which areas and components of the 
power system and most vulnerable to significant damage from the 
earthquake and other natural disasters. These comprehensive 
assessments from--having informed Bonneville's multifaceted, 
seismic mitigation strategy and has allowed it to prioritize 
where and when to upgrade and reinforce critical facilities and 
equipment.
    Electricity will be critical to the region's recovery in 
the event of a natural disaster. Whether continuing to harden 
facilities, protecting power system equipment or researching 
the latest seismic mitigation tools and technology, Bonneville 
takes this responsibility of shoring up its assets extremely 
serious.
    As Chief Administrative Officer I oversee Bonneville's 
Office of Security and Continuity of Operations which 
implements the Bonneville-wide program for physical, personnel, 
information and infrastructure security, emergency management 
and continuity of operations. This Office ensures Bonneville is 
resilient and able to quickly recover from events that cause 
operational impacts. With that goal in mind, Bonneville 
recently actively participated in two emergency planning 
activities.
    In April 2016 Bonneville participated in the previously 
mentioned Clear Path IV energy-focused disaster response 
exercise hosted by the Department of Energy, Office of 
Electricity Delivery and Energy Reliability. The exercise 
scenario consisted of a magnitude 9.0 earthquake and subsequent 
tsunami occurring along the 700-mile-long Cascadia Subduction 
Zone causing considerable damage to Washington, Oregon and 
Northern California. The exercise scenario was designed to test 
regional dependencies in the energy sector. The exercise was a 
positive step forward in developing the national energy 
response capability and served as an important forum for 
building and strengthening linkages between government and 
industry. The exercise also identified improvements that can be 
made with respect to coordination between critical components 
that must work together to quickly respond to a catastrophic 
event. Bonneville will continue to work with the DOE Office of 
Electricity and its regional energy partners to address gaps 
that were identified by participating in this exercise.
    In 2016, June 2016, Bonneville participated in the largest 
FEMA exercise ever conducted in the region. Building from the 
energy sector-specific Clear Path IV, Cascadia Rising also 
simulated a 9.4 magnitude earthquake. For our part Bonneville 
held a four-day exercise with its core emergency response 
personnel and table top exercises for field staff across the 
service territory. Bonneville tested its plan and transferred 
complete control of its electric grid to a site hundreds of 
miles from the potentially affected area.
    Cascadia Rising and Clear Path IV proved to be successful 
exercises for Bonneville in so far as they allowed employees 
and workers to practice their training and test our 
implementation plans. Bonneville will continue to participate 
in these types of emergency response exercises so we become 
well practiced and operationally ready to face real life 
situations.
    As the owner and operator of 75 percent of the region's 
high voltage electric transmission system, Bonneville knows 
investments in both physical security and cybersecurity is 
vitally important to safely and reliably operating the electric 
grid in a modern world.
    We recently embarked on a multi-million-dollar physical 
security program for critical substations concentrating on 
perimeter security. This effort includes upgrading fencing, 
lighting and improving detecting systems, cameras and alarms 
and has led to more comprehensive security design standards for 
wherever substation facilities are upgraded or new substations 
facilities are constructed.
    In the past two years we've increased our staffing around 
cybersecurity from 12 employees to over 40 employees and 
implemented a 24/7 cybersecurity operations and analysis 
center. Bonneville has two dedicated teams to cybersecurity. 
One team performs forensics and intelligence, incident response 
and 24 hours a day handling of these type of issues. The other 
team performs offensive research and security assessments. 
Bonneville even conducts offensive cyber operations against our 
own network to test, drill and improve our detection and 
response.
    In conclusion, our investments to make Bonneville a more 
resilient organization from hardening and protecting our 
infrastructure to the time that we spend to take, to prepare 
and practice how we respond to a disaster will ultimately help 
us limit damages to our electric power system and help the 
region more quickly recover from a major disaster.
    Ranking Member Cantwell, Secretary Moniz, thank you for 
this opportunity to testify. I happily submit my written 
testimony for the record and respond to any questions you may 
have.
    [The prepared statement of Mr. Hairston follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Thank you.
    Mr. Rogers, welcome, and thank you for being here.

 STATEMENT OF SCOT ROGERS, EXECUTIVE VICE PRESIDENT & GENERAL 
                   COUNSEL, F5 NETWORKS, INC.

    Mr. Rogers. Thank you very much for having me, Senator. 
Good afternoon.
    For the record my name is Scot Rogers. I'm the Executive 
Vice President and General Counsel of F5 Networks, Inc.
    Again, I want to thank the Senator and the Secretary for 
giving me this opportunity to testify and provide information 
to this Committee and be a part of this panel to discuss 
topics, we at F5 believe are of critical importance to the 
safety and prosperity of our country. But I'd first like to 
give you a little background on my employer, F5 Networks.
    We're a worldwide leading developer and provider of 
software-defined application services. We are based here in 
Seattle with over 4,300 employees worldwide and applications 
have become the gateway to critical and sensitive data and 
services. And our mission is to help organizations deliver the 
most secure, fast and reliable applications to anyone, 
anywhere, at any time.
    Our offerings include software products for network and 
application security, access management and a number of other 
network and application services. In conjunction with our 
customers and partners across a variety of fields and 
industries, we are closely watching the evolution of cyber 
threat landscape for organizations in the 21st century.
    As the Senator and the Secretary referred to repeatedly 
during their presentations that this concept of innovation and 
innovations driven here in the Northwest are creating new 
challenges for the energy infrastructure. Disruptive technology 
trends are dynamically altering the threat landscape for 
organizations operating in today's world. The explosion of new 
software applications, the emergence of cloud computing and the 
Internet of things, combined with an increasingly mobile 
workforce are leading to dissolution of the traditional 
security perimeter.
    Legacy security architectures are no longer adequate to 
protect against the evolving threats posed by cyber criminals, 
activists and state-sponsored espionage and sabotage. To borrow 
from a commonly used analogy, the traditional security 
architectures were akin to building a castle and a moat to 
secure the king. The castle architectural relies upon utilizing 
traditional network firewalls and other devices on the network 
perimeter to monitor and block suspicious traffic at the 
boundary of the network.
    In today's world envision the software application as a 
very mobile president traveling the world, who needs the 
protection of its Secret Service bodyguards as he travels. As 
the network perimeter or in this analogy, the castle walls, 
become more and more irrelevant industries need to focus on 
protecting the software applications that drive their business 
and manage their critical infrastructure as well as verifying 
the identities of those users who access those applications.
    The leading technology industry firm, Gardner, estimates 
that 90 percent of security investment is target at securing 
this network perimeter but only 28 percent of the attacks are 
focused there.
    Conversely, only ten percent of the security investment is 
focused on securing the software application itself while 72 
percent of attacks are from application vulnerabilities and 
stolen user credentials.
    Our U.S. energy sector is not immune to these types of 
evolving threats. In particular, the Internet of things with 
the inclusion of new Smart meters, home power generation 
devices with connections back into the power grid and the 
various interfaces of the scattered networks creating a unique 
set of challenges. All these new Smart devices are run by new 
and innovative software applications whose access needs to be 
managed and whose data needs to be protected.
    And where will the state of emerging energy applications be 
developed and reside as the world moves to a cloud centric 
model? Again, these applications are being built and hosted 
outside the castle walls.
    All of these unsecured new devices create new threat 
factors of attack that must be mitigated. The world of our 
energy infrastructure, it isn't the theft of data that is the 
biggest threat, but a disruption of service or destruction of 
its means of delivery.
    In December of last year hackers disabled portions of 
Ukraine's power grid leaving over 200,000 residents without 
power for several hours. In the attack on the Ukraine's power 
grid, the hackers used compromised user credentials to remotely 
log in to the SCADA network that controlled the grid. In this 
instance remote workers weren't required to use two factor 
authentication for remote log in which allowed the attackers to 
hijack their credentials and gain crucial access to the systems 
that control the breakers for the system.
    The Department of Energy has taken steps to help secure our 
nation's energy infrastructure with the issuance of its Energy 
Sector Cybersecurity Framework Implementation Guidance 
containing recommendations for implementation of the NIST 
framework for improving critical infrastructure of 
cybersecurity.
    In the ever evolving world of technology it is important 
that organizations stay vigilant to address these exponential 
threats presented by new technologies and to avoid complacency. 
A strong focus on protecting not just the networks 
interconnected to our infrastructure but the software 
applications that operate and support that infrastructure as 
well as the users accessing those software applications it's 
critical to the safety and security of our nation's energy 
sector.
    Through utilization of web application firewalls, 
multifactor authentication and identity federation for secure 
remote access, with consistent policy-based access controls and 
security data analytics on user behavior, the energy sector can 
evolve its security architecture to address the dissolution of 
the network perimeter.
    With that I would like to acknowledge the Committee and 
thank them for giving the opportunity to recognize these 
threats that are emerging and note that I'm happy to answer any 
questions that the Committee may have, as well as to provide 
any follow-up materials.
    [The prepared statement of Mr. Rogers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Thank you. Thank you.
    Mr. Imhoff, thank you so much for being here today. 
Hopefully we will see you tomorrow as well, but thank you for 
being here to testify at today's hearing.

   STATEMENT OF CARL IMHOFF, MANAGER, GRID RESEARCH PROGRAM, 
   PACIFIC NORTHWEST NATIONAL LABORATORY, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Imhoff. I will be there tomorrow.
    Thank you very much, Senator Cantwell, for the opportunity 
to appear. And thank you, Mr. Secretary, for joining us in the 
beautiful Pacific Northwest. My mission today is to discuss 
issues around grid resiliency and emergency response, 
particularly as they relate to grid modernization.
    My name is Carl Imhoff. I lead the Grid Research Program at 
the Pacific Northwest National Laboratory (PNNL), and I also 
co-chair the Grid Modernization Laboratory Consortium which is 
a membership of 13 national laboratories and over 100 industry 
and academic partners supporting DOE's unified Grid 
Modernization Initiative.
    For more than two decades PNNL has supported power system 
resilience and innovation for the State of Washington, the 
Pacific Northwest and the nation. In that time, we lead in the 
delivery to the nation, a network of 2,000 high speed, 
synchrophasor monitors that monitor the nation 30 samples a 
second, 24/7.
    We've also delivered innovations in distributed control and 
demand response with the promise of delivering demand at scale 
and providing grid services faster, greener, cheaper and 
supported the nation's largest Smart Grid demonstration in 
doing so.
    We're delivering high performance computing that's taking 
security tools from days to seconds to converge and helping the 
operators, such as Bonneville, monitor the system and avoid 
outages and so we've had a phenomenal long record of support to 
the grid. And we'll continue to do so going forward.
    My assignment was to talk about the link between grid 
modernization and security and resilience, but before I do I 
have to frame my two key recommendations for the session. One, 
important to deliver next generation, real time tools for 
situational awareness, risk assessment and grid operations that 
transform our nation's capacity to assess risk in real time and 
help mitigate outages with assisted support for operators in 
real time. Secondly, to improve the emergency response 
capabilities leveraging new data sources and new analytic tools 
to enhance both regional and local planning but also then 
preparation for major extreme events.
    So let me start with the highlights of why is the grid 
important? What's changed in the landscape of the grid? And 
then comment on how can grid modernization enhance our 
resilience in emergency response?
    The future power system is facing substantially more 
complex conditions and risk going forward. Today we have 
increased storm frequency and intensity. We see increased 
interdependencies between grid systems and other critical 
infrastructure such as natural gas pipelines, communications 
and emerging market models.
    New digital technology is transforming the availability of 
new consumer services at the grid edge where it also increases 
the attack planning and increases the cybersecurity challenge. 
Overall, the grid faces increased complexity in supply, demand 
and business models, and this is a grid that today is very 
important to our economy but it's going to be more strategic 
into the future.
    Our current economy is increasingly digital but the 
consumers are looking for more benefits from IT and intelligent 
devices and all at the edge. Much of the past climate research 
is showing that electrification is a key to going in terms of 
de-carbonization. So the grid is essential today and it will 
become increasingly more strategic in the future.
    So how does a modernized grid support emergency response? 
Let me frame three options.
    First, it will deliver improved grid infrastructure 
resilience such as new distribution feeders that better resist 
natural and human threats and recover faster reducing the 
fundamental need for emergency response. An example is Avista 
Corp in Spokane which achieved 1.5 million avoided customer 
outage minutes in 2013 from its Smart Grid Investment Grant 
effort and advanced metering and distribution automation. They 
also shortened average outages by ten percent, experienced 21 
percent fewer outages and their participation in that 
partnership with DOE led to an accelerated full system 
modernization for Vista, accelerated by probably over a decade.
    Enhanced real time tools and system visibility will reduce 
the scope of outages, shorten the time utilities need to 
identify the outage locations and optimize restoration planning 
to get the lights back on more quickly. An example is the use 
of synchophasor monitoring that would have given the Ohio 
operators, had they had phasor measurement units, an hour and 
40-minute warning that Cleveland was pulling away from the rest 
of the system. The result would have been a much smaller 
blackout and much faster recovery at much lower cost to the 
taxpayers.
    Upgraded planning tools will better handle the complexity 
of variable generation and new markets and changing business 
models, improving emergency response planning, especially for 
extreme events such as seismic and major regional weather 
emergencies.
    So, how do we achieve these recommendations I offered? 
Delivering real time tools will help operators better 
understand risks and options to avoid outages with accuracy far 
beyond current practice.
    One promising opportunity is the delivery of near real time 
risk contingency analysis that's basically looking at the 
40,000 to 60,000 outlets and saying if we lose certain numbers 
of these what does that do to the security of our grid?
    Today operators conduct power flow to identify and rank all 
system risks. We've accelerated this analysis with advanced 
computing to take the computation from days to seconds. In the 
case of the Western interconnection, this method cut the 
computation run from 26 hours to 7 seconds. This improvement 
gives operators near real time situational awareness of risks 
and options to mitigate outages.
    Experiments at PNNL's control rooms, that you'll see 
tomorrow, with grid operators showed a 30 percent improvement 
in their ability to diagnose and respond to test cases of 
outages using these new tools.
    And an emergency--emerging advanced and planning tools is 
DOE's commission tool to assess the risk of extremely rare but 
large cascading events and outages. We, PNNL, worked with 
ERCOT, Siemens and EPRI to develop an extreme event tool that 
transformed the utility's ability to conduct such analyses and 
better prepares the industry to respond to the new NERC 
standards in terms of extreme events.
    An increasingly important element of improved resilience is 
grid flexibility. You get flexibility in two big ways.
    One is energy storage and also advanced distributed 
controls that the Secretary mentioned earlier. Widespread 
deployment of energy storage for multiple grid applications 
requires significant reduction of life cycle costs of energy 
storage and a validation of the value for the value 
propositions and multiple grid applications.
    To reduce storage costs while improving life cycle 
performance PNNL is actively engaged in research and the 
discovery and development of next generation materials and 
early PNNL R and D advances have been licensed to several 
companies including UniEnergy which is located in Washington 
State and is deploying stationary flow batteries for grid scale 
applications globally.
    Through DOE and Washington State Clean Energy funding we 
are partnered also with Avista, Snohomish, DUD, Puget Sound 
Energy, to validate the performance and use cases for field 
deployed grid storage.
    A second source of flexibility is advanced distributed 
control theory. Transactive control concepts, a blending of 
traditional controls and economic incentives to engage 
distributive resources at scale and beyond normal utility 
boundaries have been demonstrated in the Pacific Northwest 
Smart Grid Demonstration Project and are being extended in the 
Clean Energy Transactive Campus Project, a partnership between 
DOE and the Department of Commerce. This project will help 
demonstrate the benefit of demand side controls across multiple 
buildings and campuses that can provide load flexibility to 
reduce peak demand and manage renewable ramping.
    Turning to specific emergency response tools, PNNL supports 
DOE's Office of Infrastructure Security and Energy Restoration 
(ISER) by developing technologies to aid emergency response. 
We're launching an effort to support ISER with automated 
analysis of digital satellite imagery to quickly assess 
infrastructure damage. It's at work today in the State of 
Louisiana.
    PNNL is also supporting ISER during national emergencies 
with real time visualization and communication platforms in 
partnership with HAMMER, the federal training center you'll see 
in Richland tomorrow.
    Finally, in terms of cybersecurity response, PNNL developed 
a program that, by the end of next month, will provide cyber 
support to the utilities that generate 75 percent of the 
nation's electricity. This is a DOE development concept in 
terms of cyber risk information sharing. It's now led by NERC 
and industry. The sensors and concepts came from PNNL and we 
continue to provide analytics for that very important exercise. 
The next step in that journey is to find ways to engage the 
small and mid-size utilities more effectively.
    So in conclusion, a modernized grid should substantially 
improve emergency response by delivering a more resilient 
system, providing new planning and real time tools to better 
identify and mitigate outage risks.
    Thank you for the opportunity to provide comments. Thank 
you for your long leadership in terms of Smart Grid and grid 
modernization.
    And thank you, Mr. Secretary, for delivering the first 
integrated grid strategy in my 30-year career in the national 
labs.
    [The prepared statement of Mr. Imhoff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Well thank you, Mr. Imhoff.
    I will note though, we've had several stops on this tour 
already and in each stop the Secretary has gone out of his way 
to emphasize how important the Pacific Northwest National 
Laboratory is to the country.
    Secretary Moniz. No, no, I didn't say that.
    [Laughter.]
    Senator Cantwell. And to the region.
    I just want to thank him, and thank you for being here as a 
representative of that.
    Secretary Moniz. He wants a raise.
    [Laughter.]
    Senator Cantwell. Well, give him one.
    [Laughter.]
    Senator Cantwell. So, Dr. Best, thank you so much. We have 
saved the best for last.
    [Laughter.]
    Senator Cantwell. So thank you----

   STATEMENT OF DR. LYNN BEST, CHIEF ENVIRONMENTAL OFFICER, 
                       SEATTLE CITY LIGHT

    Dr. Best. Madam Chairwoman and Secretary Moniz, I want to 
thank you on behalf of Seattle City Light for the opportunity 
to testify today before the Senate Energy and Natural Resources 
Committee.
    My name is Lynn Best, and I am the Environmental Officer 
for City Light. Seattle City Light provides reliable, renewable 
and environmentally responsible power to the residents of 
Seattle and neighboring communities. City Light has been 
greenhouse gas neutral since 2005, the first electric utility 
to achieve this distinction.
    My testimony today will focus on electric utility 
resilience in the face of climate change. I will cover City 
Lights' recently completed Climate Adaptation Plan, our 
participation in the Department of Energy's Partnership for 
Energy Sector Climate Resilience and two actual events that 
reflect the risks identified in the plan, the Oso mudslide and 
the Goodell Creek Fire.
    While City Light owns no fossil fuel resources and obtains 
90 percent of its power from hydroelectric resources it--we are 
affected by climate change.
    In 2013 as part of the resiliency strategy for our utility, 
City Light committed to researching the impacts of climate 
change on the utility and developing an adaptation plan 
including actions to minimize these impacts. City Light's 
Climate Adaptation Plan evaluates how City Light is at risk 
from climate change, the vulnerability from our operations and 
infrastructure to these risks and the potential magnitude of 
the impacts. It then uses this information to help prioritize 
potential adaptation strategies.
    Seattle City Light is also one of 18 electric utilities in 
the nation participating in Department of Energy's Partnership 
for Energy Sector Climate Resiliency. This partnership allows 
utilities to exchange knowledge and best practices as well as 
receive recognition for their achievements. This partnership 
also promotes investment in technologies and practices and 
policies that will enable resilient and modern energy system. 
City Light looks forward to our continued collaboration with 
DOE and other utilities as we work together in this 
partnership.
    The importance of taking action is illustrated by two 
recent events.
    On March 22, 2014 a 300-acre landslide occurred in Oso, 
Washington that killed 30 people and destroyed a local 
community. This happened during a March that was the wettest in 
history. The slide which occurred to the north of City Light's 
transmission line from the Skagit Hydro project caused minor 
damage to one tower and came within feet of causing significant 
damage to the line. The Oso slide is an example of the impacts 
that we are concerned about with climate change. As the 
frequency and intensity of heavy participation increases, these 
loose sedimentary soils are more likely to slide. If the Oso 
slide had happened on the south side of the valley our 
transmission lines would have been destroyed for about a mile, 
at a minimum and potentially more.
    In anticipation of this becoming an increasing risk, City 
Light has applied twice for Federal Emergency Management Act 
(FEMA) grants to retrofit six towers in this area to limit the 
amount of damage that could occur from a similar or smaller 
slide.
    While the proximity of Seattle City Light's transmission 
line constituted a significant risk to the utility, it also 
provided the opportunity for us to be of assistance to the 
community when the main arterial of Washington State, Route 530 
between the cities of Darrington and Arlington, was destroyed 
in the slide. A single lane, gravel access road that was our 
access road for our transmission line was used as a lifeline to 
bypass that section and reach the community of Darrington.
    The Goodell Creek fire started on August 10, 2015, and 
spread to the woods near the Skagit Hydroelectric Project a few 
days later. Seattle City Light operates three dams and power 
houses at Ross, Diablo and Gorge Reservoirs in this area. These 
facilities produce 20 percent of the power consumed by our 
customers.
    The fire changed direction suddenly and burned under the 
lines forcing the utility to shut down transmission lines that 
carry electricity from the project. Spill gates at all three 
dams were opened to maintain river flows to protect fish. 
Within 15 minutes--with 15 minutes of warning City Light needed 
to replace 20 percent of the power needed to serve our load.
    The inability to deliver electricity from the Skagit also 
cost us $100,000 per day. The company town of Diablo was 
evacuated quickly and Newhalem reduced to only essential 
personnel. City Light fire fighters worked to protect our 
assets, the power houses and residences and other structures. 
The total cost to utility was estimated at $5.3 million.
    Wildland fire risk is one that the utility's climate 
scientists had identified well before the Goodell Creek fire 
last August. More and longer lasting fires have been occurring 
on the West side of the Cascades over the past few years. City 
Light had already completed fire wise projects to protect 
buildings, and while the fire worked its way to the projects, 
it stopped before damaging buildings.
    The utility also is applying for mitigation funds from FEMA 
as part of the repairs following this fire to replace the 
timber saddles that were part of the Newhalem Creek plant 
penstock. In addition, we are training our fire fighters in 
wildfire fighting.
    In addition to the physical threat we had to move our 
balancing authority to our Boundary project. Unfortunately, 
Boundary has limited storage. It's a run of the river project. 
And as a result, there was fear that there would not be enough 
water available at Boundary and we would have to declare a 
capacity emergency.
    We were able to contact our fellow utilities upstream, and 
we want to thank Avista and Pend Oreille PUD for providing 
water to allow us to continue to keep Boundary as our balancing 
authority. This was an excellent example of utilities providing 
assistance under emergency situations.
    Thank you very much for the opportunity to testify.
    [The prepared statement of Dr. Best follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Thank you, Dr. Best.
    Again, thanks to all the witnesses today. You obviously 
represent the interests of our infrastructure across a variety 
of different areas in your testimony and help illuminate some 
of the challenges that we have been dealing with here in the 
Northwest. So thank you for that.
    I would like to begin with you, Mr. Ezelle, as it related 
to some of the things that you have mentioned, in regards to 
the National Guard. Obviously, you and I have worked together 
on Oso and on the two major fires that we have had in our 
state, so we have had a lot of chances to see the operations on 
the ground.
    In talking with you during some of those events and now 
hearing from Commissioner Bowman, I just want to ask you on 
this issue of rail response since I used to say Ports-R-Us, but 
I think we should say Ports-R-Us and Railroads-R-Us. If you 
have this many, if you are a state of our position and export 
opportunity, we have become central for pushing product. 
Obviously crude by rail, is a major shift change in what we 
have seen. How are you best preparing for the issues as it 
relates to the population centers across our state?
    Mr. Ezelle. Madam Chair, thanks for the opportunity to 
comment on that.
    The Washington State Legislature realized the criticality 
of this issue and in this biennium they allocated funding for 
four FTEs to the Washington Military Department and Emergency 
Management Division. Our specific purpose is to work with the 
counties and communities along these railroads, both the 
incoming rail route along the Columbia Gorge, but also, 
secondarily, the outgoing routes where the empties travel 
because the empties also have a hazard themselves.
    What we are doing is working with the local Emergency 
Planning Committees to build detailed response plans within the 
communities, within the counties so if there is an accident of 
the type that we saw in Mosier that our communities are ready 
and able to respond.
    Senator Cantwell. Commissioner Bowman, did you want to add 
something about your experience from Mosier?
    Ms. Bowman. Absolutely, thank you.
    Maybe to put a little bit of my remarks into context, I 
wasn't at the derailment but I was there within about three 
minutes of the derailment. And so I saw the first flames go up, 
and I was one of the first to call 911 in response.
    When after the derailment I ran down to the site, I got 
within about 200 yards of the derailment and the fire which, I 
think, as you know, Senator Cantwell, was about 300 feet from 
the local school.
    A couple of things that really stood out for me from that 
experience was, with all due respect to our first responders in 
those remote rural areas of the state, this is Oregon, but you 
know, it's right across the river from Bingen, Washington.
    With all due respect to the first responders, they're all 
volunteer fire fighters, they had no experience in dealing with 
oil fires and that was immediately evident. Obviously, a fire 
caused by oil is much different in terms of the way you fight 
it than is a fire caused by, excuse me, anything else. The 
first thing that I did was call Burlington Northern, and I 
wanted to call out the Burlington Northern for providing expert 
advice in terms of what the response would be.
    What I learned from the experience was that we would have 
foam trailers coming out to the site. Unfortunately, the foam 
trailers to deal with the fire didn't arrive. It was almost 
four hours before they arrived. That was probably the other big 
take away for me.
    I immediately called our CEO at the Port of Seattle and our 
CEO at the Port of Tacoma and our Fire Chief at the Port of 
Seattle and directed them to provide any and all resources to 
the fire that needed to be.
    I'm proud that the Port of Seattle provided resources to 
the Port of Portland who was unable to deploy the foam trailers 
that arrived about four hours after the fire started. You may 
have heard later that the foam--that the fire was burning so 
hot at that point that the foam was disintegrating before it 
could even get to the rail cars.
    So, I guess the biggest take away from this is that, as you 
probably know, Senator Cantwell, it would have been a wildfire 
of catastrophic proportion had there been any wind that day. It 
was an absolute miracle that there was no wind. That's what the 
Columbia Gorge is known for, is wind, and there was no wind 
that day.
    There's no way that anybody could have responded quickly 
enough. And so, the things that I would ask the Committee and 
the Federal Government to consider are a few things.
    Providing more resources in terms of training emergency 
responders in these rural communities. As you noted earlier, 
it's much different than in an urban area. Having foam trailers 
30 miles apart is not adequate. They can't get there in time.
    I would say that we need better evacuation plans. There was 
no plan in this community for evacuating. Literally, residents 
were sitting trying to figure out what to do. I was on the 
scene for about two hours. When the third car started to ignite 
I decided it's time to go home and pack and find a way out of 
town. By then the freeway was shut down. The only way to leave 
the town was through a rural, gravel road that is 12 miles back 
into the town of Hood River. Had there been a wildfire that 
route would have been closed off as well. So if we're going to 
have crude by rail we need to have better emergency response.
    Senator Cantwell. Thank you.
    As a Port of Seattle Commissioner familiar with our 
waterfront access, I know we have had the mayor on some of our 
hearings and briefings on this. He has said he would not direct 
first responders to respond to an incident in the tunnel in 
Seattle if such an incident happened. How do you look at that 
same incident happening anywhere in downtown Seattle?
    Ms. Bowman. Well certainly the Port of Seattle would offer, 
again, any and all resources. My understanding is that the 
Seattle Fire Department should be the first responder at that 
point. But I don't believe, I'm not sure that they've been 
trained adequately.
    Senator Cantwell. Do you, having witnessed that incident (I 
don't know exactly where to put it on a scale, but I would say 
it is not one of the most significant events that have 
happened), but can you imagine that not having catastrophic 
effects if the Mosier incident happened in Seattle? Is there a 
way that event could have happened without catastrophic effects 
to us?
    Ms. Bowman. No.
    You know, again, in the case of Mosier, it was only the 
fact that there was no wind that day. But in the city of 
Seattle for something like that to happen in a tunnel, but I 
don't know how you----
    Senator Cantwell. Or anywhere on the waterfront.
    Ms. Bowman. Or anywhere on the waterfront.
    But it is, given my experience in Mosier, it's something 
that the Port of Seattle is taking a much closer look at how we 
can better coordinate with the other local agencies because I 
don't think it's something that we've really adequately planned 
for in the past.
    We haven't--we don't export oil at the Port of Seattle or 
at the Port of Tacoma so we haven't had those immediate 
problems, but certainly the trains go through the city, and we 
want to work with the railroads to make sure that there is 
adequate response.
    Senator Cantwell. I think it could be greatly impacted by 
that because, obviously, the rail goes by your facilities. It 
is something I am glad you are looking at.
    On cyber I wanted to focus on Mr. Rogers. Thank you for 
your testimony. When you are talking about this perimeter issue 
versus the software attacks which I feel like is never 
changing. Someone is going to cook up a new tool a week.
    Mr. Rogers. Right.
    Senator Cantwell. So I get what you are saying. Instead of 
just protecting the perimeter, let's look at the overall 
structure and infrastructure and ways in.
    How do we create a strong defense? What are the steps and 
tools we should be taking to address this shift? And what would 
be the three or four things we should focus on?
    Mr. Rogers. Well, it's interesting. I picked up on Mr. 
Hairston's comments about some of the efforts that they're 
doing with their facilities. The implementation of their 
security operation center, for example, using some, I'm sure, 
using some of the advanced data analytics that are becoming 
common within the industry now for security purposes to track 
user behavior, to determine whether or not access controls are 
properly being utilized, to determine if a user is acting in a 
way or accessing an application they shouldn't be. I think that 
user access piece is one really important piece of that.
    Secondly, the follow up to that was the use of the security 
analytics through having a SOC, as we like to call it in the 
parlance of the industry, the Security Operations Center. To 
monitor that traffic is becoming increasingly important because 
you can't just have a static type of barrier to prevent attack. 
You need to have people monitoring and watching behavior on the 
network.
    I think actually focusing the strengths of your new 
perimeter around the application itself, wherever it may 
reside, increasingly it's knotting your own network. It may be 
in a cloud somewhere, it may be in a hosted environment, or it 
may reside on an application on a device somewhere. So the 
ability to protect that application through use of like a web 
application firewall and examining the vulnerabilities of the 
application itself and how you protect against manipulation of 
those vulnerabilities.
    The idea is while the moat still needs to be there for your 
traditional network and the wall still needs to be there, it's 
not enough anymore. You really need to focus on a deeper level 
of security with more analytics and a more proactive approach.
    I think in the past one of the things that's been discussed 
in a risk profile, particularly here in the U.S. with the risk 
from terrorism, there's been this concept of failure of 
imagination. If you can imagine the risk, then you should be 
able to try to find a way to defend against it. Where we run 
into problems is we lose that imagination about what the next, 
where the next attack could come from.
    Senator Cantwell. Well it is certainly asymmetric on all 
fronts.
    [Laughter.]
    Senator Cantwell. And certainly when it comes to cyber, it 
is asymmetric.
    I, again, want to thank our National Guard. The fact that 
we have a concentration of software and the Air Force and 
National Guard, they have really taken a lead on, and the 
University of Washington on this issue of creating, step by 
step, of really cyber hygiene that they believe that people 
should be following as well as helping to create a workforce 
that is focused on getting us the best and brightest in this 
area.
    Mr. Imhoff, what do you think about what Mr. Rogers is 
saying as it relates to approaching this more from a software 
perspective and what we need to do from the national laboratory 
to help with that effort?
    Mr. Imhoff. So I agree with him.
    [Laughter.]
    Mr. Imhoff. There's still some work to be done on the 
perimeters. We learned in the Smart Grid Investment Grants that 
made the small and mid-sized utilities just can make huge 
progress by learning basic good housekeeping in terms of 
maintaining your perimeter and doing training, et cetera. But 
we need to go beyond that. We need to deliver advanced 
analytics and part related to crisp that focuses on the 
business side of the systems.
    The other attack plan of interest is the control side of 
the grid. Part of it is design, next generation controls that 
are inherently resilient and have adaptive response to threats, 
all hazards, not just cyber, but the control system helps let 
the system down and keeps it from propagating throughout the 
control system. That's part of the strategy, the other part of 
anticipating where we're heading.
    We recently helped NERC put in place their first designed 
basic threat assessment, looking at cyber, which basically says 
who are the actors? What are their intentions? What tools do 
they have? What options might they deploy to help attack?
    It's really getting into the analytics figuring out where 
do you most need the analytics? How do you prioritize your 
defense inside the perimeter, if you will?
    And as you said, that game will never end. It will 
constantly go and go and go. But that scenario where we can 
create more distance between us and the adversaries in terms of 
being more strategic and more systematic from the electric 
industry standpoint in terms of how do we anticipate and 
prepare the defense of the analytics.
    Senator Cantwell. I am going to turn it over to the 
Secretary, but I do want to ask since you are looking at this 
from our national lab perspective. One of the things that we 
have discussed here locally is the notion that we need to 
continue to upgrade, that some of the security, as was said, is 
in that application and if we can just continue to get people 
to upgrade there are great securities in that. Now, of course, 
we are a software state, and we like upgrades.
    [Laughter.]
    Senator Cantwell. Well, let's just say we like upgrades 
when they work.
    [Laughter.]
    Senator Cantwell. And work effectively.
    Should we be looking at this from a different mindset? I 
mean, is this a continual game of how fast can we run ahead of 
the hackers or is there some level that we should be trying to 
get people to adjust to as it relates to the software side of 
the equation? That good hygiene is an upgrade once a year or 
every two years or something of that nature because we are 
fixing so many of the identifiable problems.
    So any thoughts, Mr. Imhoff or Mr. Rogers, on that?
    Mr. Imhoff. That's a tough question.
    I think that the intent in the Grid Modernization 
Initiative is to build very strong relationships with the 
vendor community and try to embed best practice and more 
resilience to the point that Scot mentioned in the next 
generations of grid vendor tools that are deployed out to the 
systems. I think there's a lot of room for improvement in 
ensuring enhanced resilience in those software systems that get 
deployed out into the future.
    One big challenge we have is in the old days most of the 
grid upgrades were physical assets and going into the future 
they're going to be digital assets, very different lifetimes 
and the need for more frequent upgrade and transition, et 
cetera. So, that's going to be a really different world that we 
face going forward.
    One last comment I would offer is that to unleash the 
innovation in this space we need to have access to data. We 
need to preserve the privacy in that data. We need to preserve 
the security issues around that data.
    The Department, through ARPA-E, has been investing in 
several new grid programs looking at establishing data 
repositories that are anomalized such that basically you remove 
the privacy issues in the data but you maintain the physics 
that make that data useful for looking at innovations. I think 
this notion of data repositories that are safe and secure, that 
are available to the innovation community, is a big step 
forward to help us unleash the innovation but do it in a way 
that protects privacy and give them data sets that are safe.
    I think then, we can raise the bar in terms of the quality 
of these software upgrades, that the experience of the software 
engineers and control engineers market the utilities, et cetera 
and you'll see that tomorrow.
    Senator Cantwell. Before Mr. Rogers replies, I know the 
subject can seem very dry or very geeky in some ways, but I 
guarantee you, it's not.
    When our own data base in the Congress was hacked, the 
personnel system and the security clearance of every employee 
that had a security clearance was violated. You were putting 
the United States security at great risk, and this is going to 
continue, to say nothing of the personal side of each employee 
whose personal data and information was put at risk. We, as a 
nation, were undermined by those security clearances that were 
given to each of those individuals.
    That is something a foreign agent can act on or take 
advantage of so getting this right is very important. While I 
wish the Federal Government was an early adopter, let's just 
say, Mr. Secretary, they are not an early adopter. We are, kind 
of, a late adopter when it comes to technology. So I think we 
are a good example, if you will, in that regard of what is 
happening with a large sector of our society being very late to 
moving forward on the latest and greatest.
    So Mr. Rogers, my original question, how should we look at 
this? Is there a new timeframe we should be looking at to stay 
ahead of people just in the sense of good hygiene?
    Mr. Rogers. I think that brings up a couple of points.
    I think there are some opportunities for good hygiene. And 
I think, as Mr. Imhoff noted earlier, that just through their 
studies they found some low hanging fruit that some of the 
smaller producers and infrastructure providers could do to 
really help the resiliency.
    I think that one of the challenges that everybody faces is 
we have this innovation. We have these growing technologies, 
and it's the people to operate them.
    I think one of the areas, to the point of doing the 
upgrades, managing the infrastructure, managing the security 
operation centers and so forth, talent development is going to 
be critical as well. I think I know that there's some efforts 
that have been going on that have been mentioned earlier that 
were very important to get the talent within the area to help 
run these systems.
    I know that, for example, an initiative that F5 did, is 
we've reached out and have been pairing with the military for 
training on our products for military veterans as they leave 
the service.
    I think it's these kinds of joint public/private types of 
efforts that can really go a long ways toward, you know, 
developing the talent pool because you can have all the 
software in the systems in the world, but if you don't have the 
people to operate them or the people that work in the security 
operations centers to monitor them, then you're really behind 
the game.
    Secretary Moniz. Can I comment there?
    Senator Cantwell. Yes, so I will turn it over to you, Mr. 
Secretary.
    Secretary Moniz. Oh, okay.
    Senator Cantwell. You can have as much time as you would 
like.
    Secretary Moniz. Alright.
    Senator Cantwell. To ask any of the witnesses questions.
    Secretary Moniz. Okay, well first I want to comment on 
these last two comments a little bit in terms of your question 
about what steps need to be taken. Actually, Mr. Rogers 
mentioned earlier in the Ukraine context multifactor 
authentication is a nominally, straightforward, not always to 
implement approach that can help a lot in these situations.
    Also, Mr. Imhoff's comment, I just wanted to make a comment 
that goes, it's much more broad than this issue. It's a common 
issue. It applies here. And that is as we get more and more 
into a world where large scale computation, big data analytics, 
machine learning all become part of doing business here the 
data access is over and over again a big problem. It applies as 
much to cancer as it does to cybersecurity.
    So I think this question of data access is something that 
the Congress may need to, kind of, deal with in a very broad 
sense.
    Senator Cantwell. You mean in the repository suggestion 
that Mr.----
    Secretary Moniz. Well, yeah, I mean from the cancer issue, 
it's the same thing. There's a lot of data out there but it's 
hard to get it, proprietary, all kinds of issues how it's 
heterogeneous in editions. So it's a big problem, a broad 
problem, and certainly applies here as well.
    Well, if I have the floor?
    Senator Cantwell. Yes, go right ahead.
    Secretary Moniz. First of all, terrific panel and actually 
I have questions for everybody but I will not indulge myself in 
that. So maybe quick questions and quick answers. Maybe I'll 
just get three questions out.
    First, Mr. Ezelle, Cascadia Rising, you're Washington 
National Guard, dot, dot, dot. What's the first thing you think 
you're going to do if it actually happens?
    [Laughter.]
    Secretary Moniz. Number two, let me just ask the three 
questions, then go back.
    Mr. Hairston, maybe I should know this given Bonneville's 
relationship to the Department, but what would be your 
assessment from Bonneville about the security and ability to 
respond to a problem with large power transformers, 
particularly I don't mean just one goes out, but let's say a 
coordinated action taken against them?
    And third for Dr. Best, in your adaptation plan I believe 
one of the actions put in there is so-called retreating.
    Dr. Best. Yes.
    Secretary Moniz. Taking facilities away from at risk 
places. How big a challenge is that? I mean, are you talking 
about relocating everything or just very small number of 
keynotes.
    So those are my three questions.
    Mr. Ezelle. Well Mr. Secretary, I'll take a stab at the 
first one.
    I mentioned that probably the key thing that we took away 
from Cascadia Rising, at least in the emergency management 
division, was perspective. And it really, truly turned how we 
look at a catastrophic event on its head.
    And in terms of the first thing that we're going to do, 
obviously, for those of us who are in state government, I think 
the locals, the first thing is going to be to, essentially, 
take care of ourselves and our families. So, do I have to dig 
out of my house, has it collapsed on me, will I be able to get 
to work to function?
    And so, that really drove home to us the fact that we need 
to have extremely detailed response plans. So for every 
emergency support function whether it's transportation, whether 
it's communications, whether it's power, all integrated 
because, you know, what happens in transportation is going to 
affect what happens in ESF12. It's going to affect what happens 
in ESF6 and 8.
    And so all of our detailed planning needs to be to an 
extreme level of granularity but then the big take away that we 
have is that those plans need to be run by somebody else 
because a significant number of us, who are, we are, who the 
state may be planning on responding are going to be victors.
    And so, it's a case of really, truly putting together that 
planning, have somebody else outside of our area to be able to 
run those initial few days of the response until those of us 
who are in the area can dig out and then start establishing our 
capability and then starting to take it back.
    Hopefully that answers your question.
    Secretary Moniz. Yeah, interesting, yeah. I figure just 
chaos basically.
    Mr. Hairston. Alright, Mr. Secretary, in terms of the 
second question in respect to our ability to address an attack 
on a number of substations and subsequently the impact on 
transformers, it's interesting.
    I think we're growing in our ability to be able to respond. 
I think you might be aware the industry has done a lot of 
coordination on looking at spare transformer parts, what we can 
do to, maybe, leverage the number or the amount of inventory 
that's existing.
    But, you know, being able to respond or replace 
transformers is a difficult measure. It takes months, if not 
years sometimes, to get the replacement transformers. So that's 
why it is important for the industry to work together.
    The other thing is that and these are so expensive you're 
not going to make that type of capital investment and have 
those types of, you know, that type of inventory sitting on the 
bench, so to speak. So, you know, we've got what is called a 
Spare Transformer Equipment Program that's industry-wide, that 
would get a lot more involvement, and I think, positions us to 
be able to respond.
    I know there's been some thought of a, I want to say, the 
strategic transformer reserve program that's been, again, part 
of the FAST Act, that contemplates being able to respond in 
terms of a disruptive event. I think that would be a good 
complement to the existing program. So that's something that I 
think is worth definitely exploring for the industry.
    Secretary Moniz. Good. We'll have a report on that. You're 
probably working on it. Some people from BPA at least are 
working on it for Congress this year.
    Mr. Hairston. Yes.
    Dr. Best. Okay, retreating.
    So, I want to point out that retreating was the fourth of 
four different strategies that we put forward. We also said it 
was a strategy, sort of, of last resort because of the 
consequences of it.
    Mostly what we've looked at----
    Secretary Moniz. That's why I asked about it.
    Dr. Best. Yeah, yeah.
    So we've looked at hardening of infrastructure like we are 
looking at the Oso-type landslide situation. We're looking at 
increasing resilience, like fire wise, for our facilities.
    But we looked at retreating where you have a facility that 
is in, say, a flood plain that you know is going to be 
repeatedly at risk. And luckily for Seattle right now it 
doesn't look as if Seattle City Light has critical 
infrastructure in the areas that are going to be flooded in the 
city. And so, we're looking at the, what I would say, lesser 
infrastructure in those areas.
    But I think also this is a reason why it's so important to 
work on climate preparation now because the decisions utilities 
are making now will last for 20, 30, 40, sometimes 50 years. 
And if we do the, make the right decisions now we can greatly 
reduce the impacts on our customers, on the utility and also on 
the environment.
    And so, I would say that one of the reasons for 
highlighting that in the plan is to say we really don't want to 
be put in the position of having to move massive infrastructure 
or desert it and recreate it somewhere else.
    So I think that's one of the reasons that to be aware that 
you can't harden everything necessarily and you want to be 
careful about where you put things.
    Senator Cantwell. Well, I would just add to that, Dr. Best.
    I know we are going to wrap up here but if your other 
utility associates were here today they would be singing the 
same song as it relates to our wildfires and the amount of 
transmission that burned up and the costs that are now left 
with utilities to try to replace that in many parts of our 
state. Millions of dollars of infrastructure in an afternoon 
just gone. So figuring this out is really, really important for 
us.
    I just want to thank the panelists and again, the 
Secretary, for your testimony. You have given us some good 
ideas to think about.
    As a summation point from my side I definitely am hearing 
and sensing both from you, Mr. Secretary, but also from our 
witnesses, that we are both making preparatory plans and we are 
both thinking of these challenges but we need to somehow marry 
them together. The state and local and fed need to figure out 
how we continue to have this discussion and marry our solutions 
so we can give the American people our best efforts on these 
challenging new energy problems.
    I just thank everybody for being here today to give us that 
insight, and again, you, for traveling to the Northwest.
    Again, this subject is probably something we would like to 
put off to another day, but the realities of it are that they 
are affecting us right now. So I thank you for your willingness 
to come here and do that.
    I don't know if you have any concluding remarks you would 
like to make?
    Secretary Moniz. No, just to thank you for the hearing and 
thank the witnesses because there's some very interesting 
information there. We'll follow up.
    Senator Cantwell. Great.
    Thank you all very much.
    Secretary Moniz. Thank you.
    Senator Cantwell. We are adjourned.
    [Whereupon, at 1:39 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
